INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS

         Appalachian Regional Commission
           October 1, 2010–March 31, 2011
April 2011


MEMORANDUM FOR                  THE FEDERAL CO-CHAIR

SUBJECT:                         Semiannual Report to Congress

In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, the Inspector General Reform Act of 2008, Public Law 110-409, and the Dodd-Frank Wall
Street Reform and Consumer Protection Act, Public Law 111-203. I am pleased to submit the Office of
Inspector General’s Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending March 31, 2011. During this fiscal period, we issued three reports. Two other reports are in
process, one was issued as a discussion draft and the other one should be issued as a discussion draft
soon. During this period, the OIG passed a peer review required by the Council of the Inspectors
General on Integrity and Efficiency (CIGIE). Also during this period, the Inspector General and staff
continued to serve as representatives on the Council of the Inspectors General on Integrity & Efficiency
(CIGIE), the Federal Audit Executive Committee (FAEC), and the various Intergovernmental Audit
Forums covering our jurisdictional region.

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forward to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s cooperation with the Office of Inspector General in the conduct of our
operations.




Clifford H. Jennings
Inspector General

Enclosure
                                       TABLE OF CONTENTS




                                                                                                                        Page

        Executive Summary                                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

        Purpose and Requirements of the OIG Semiannual Report                                          . . . . . . . . . . . iii

  I.    Introduction                                         .................................1

 II.    Background                                           .................................1

        Appalachian Regional Commission                      .................................1

        Office of Inspector General                          .................................5

 III.   OIG Activity                                         .................................7

        Audits, Inspections, Evaluations & Reviews           .................................7

        Investigations                                       .................................8

        Other                                                .................................9

  IV. Reporting Fraud, Waste, and Abuse                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

 V.     Legislative & Regulatory Review                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


Appendices      A.       Schedule of Reports Issued, October 1, 2010 thru March 31, 2011

                B.       Schedule of Reports with Questioned or Unsupported Costs

                C.       Schedule of Reports with Recommendations that Funds be put to Better Use
                         and Summary of Management Decisions

                D.       Schedule of Reports with Recommendations that Funds be put to Better Use
                         and Summary of Management Actions

                E.       Peer Review Results

                F.       Definition of Terms Used
                                       EXECUTIVE SUMMARY

ARC grant operations represent the most significant part of ARC’s programs. In prior reporting periods,
we issued two reports, one on ARC’s grant system and the other on ARC’s grant operations. To date,
most of the recommendations related to the grant system remain unimplemented. However, just before
the end of this reporting period, management issued a new grant policy memorandum that addressed
approximately two-thirds of our grant operations recommendations; some additional recommendations
may be closed pending further evaluation. For this reporting period our activities included: the issuance
of three audits, and providing oversight for an audit and an inspection. The inspection was a resumption
of work that was previously suspended in order to be brought current. It concerns ARC performance
reporting. The audit being conducted is of a grant investment in a fund established under SBA’s Rural
Business Investment Program (RBIP), the only operating RBIP fund in the country.

The most recent financial statement audit report was issued without disclaimer or qualification; this
makes the second consecutive report issued with a clean audit opinion since adopting federal financial
reporting rules in 2007. Previous reports were issued over six months late but this report was issued
more timely, yet was four months late. Financial reporting accuracy and timeliness appear to be
improving, and some of the report’s tardiness is probably attributable to new auditors becoming familiar
with ARC’s reporting operations.

The two performance audits we issued concern grants made to foster business growth in rural
Appalachia. The purpose of the grants were to provide training and/or intensive technical assistance to
businesses and to investigate, through trial, the establishment of a facility to house small business in
need of continued technical support. The results of the audits found that generally the purposes of the
grants were being met but did present recommendations concerning improper implementation of grant
requirements, a recommendation requiring return of funds, and noted a conflict of terms in ARC
requirements related to prior approvals.

As discussed in previous semiannuals, ARC continues to forego strict, if any, enforcement of the grant
requirements, i.e., the return of funds. For a grant audited this time, ARC chose to issue a clarification to
the grant documentation that generation of program revenue was expected and that it was not to be used
to reduce the grant funds. We continue to urge management to enforce grant requirements as it is one of
the best tools ARC has to ensure grant goals are met in a fair manner.




                                                      ii
                          PURPOSE AND REQUIREMENTS OF THE
                   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                         Reporting Requirements


Section 4(a)(2)    Review of legislation and regulations                                        Page 10


Section 5(a)(1)    Problems, abuses, and deficiencies                                           Pages 7-8


Section 5(a)(2)    Recommendations with respect to problems, abuses, and deficiencies           Pages 7-8


Section 5(a)(3)    Prior significant recommendations not yet implemented                        **


Section 5(a)(4)    Matters referred to prosecutive authorities                                  Pages 8-9


Section 5(a)(5)    Summary of instances where information was refused                           *
and    6(b)(2)

Section 5(a)(6)    Listing of audit reports showing number of reports and dollar value of       App A
                   questioned costs

Section 5(a)(7)    Summary of each particularly significant report                              **


Section 5(a)(8)    Statistical table showing number of reports and dollar value of questioned   App B
                   costs

Section 5(a)(9)    Statistical table showing number of reports and dollar value of              App C
                   recommendations that funds be put to better use and summary of
                   management decisions

Section 5(a)(10)   Summary of each audit issued before this reporting period for which no       *
                   management decision was made by end of the reporting period

Section 5(a)(11)   Significant revised management decisions                                     *



                                                         iii
Section 5(a)(12)    Significant management decisions with which the Inspector General                      Pages 7-8
                    disagrees

Section 5(a)(14)     Results of recent peer review                                                          Page 8 &
                                                                                                            App. E

Section 5(a)(15)     Outstanding recommendations from any peer review                                       *

Section 5(a)(16)     List of peer reviews conducted and any outstanding recommendations                     Page 8

Section 5(b)(3)      Statistical table showing number of reports and dollar value of
                     recommendations that funds be put to better use and summary                            App D
                     of management actions
*       None.
**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports (including recommendations).




                                                               iv
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (Pub. L. No. 100-504) provides for the establishment
of an Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC
OIG became operational on October 1, 1989, with the appointment of an IG and provision of budgetary
authority for contracted audit and/or investigation activities.


II.      BACKGROUND


         A.      APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (Pub.L. No. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-term
economic development on a coordinated regional basis in the 13 Appalachian States. The Commission
represents a unique experiment in partnership among the Federal, State, and local levels of Government
and between the public and private sectors. It is composed of the Governors of the 13 Appalachian
States and a Federal representative who is appointed by the President. The Federal representative serves
as the Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-
Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist and
         encourage other public and private resources to address Appalachia's unique needs. Program
         direction and policy are established by the Commission (ARC Code) with the vote of a majority
         of the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been
         placed on highways, infrastructure development, business enterprise, energy, and human
         resources programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 8 and the Commission, with
         a staff of 45, is responsible for ARC operations. The Office of Inspector General has a staff of 3.
         All personnel are located in Washington, DC. The Commission staff's administrative expenses,
         including salaries, are funded jointly by Federal and State funds. The Federal Office staff is
         funded entirely from Federal funds.

     -   The Commission's appropriation for FY 2010 was $76 million. The office is currently operating
         under the government-wide continuing resolution. ARC was reauthorized in October 2008
         through FY 2012 . In addition, in March 2010 the Highway Trust Fund, under Section 1101 of
         the Safe, Accountable, Flexible, and Efficient Transportation Equity Act: A Legacy for Users
         (SAFETEA-LU) received short-term funding through the end of Fiscal Year 2011. The funding
         provides for construction of the Appalachian Development Highway System which is under
         ARC’s programmatic jurisdiction; provided for under Section 201 of the 1965 Appalachian
         Regional Development Act.

     -   ARC’s non-ADHS funds are distributed to state and local entities in accordance with an
         allocation formula intended to provide fair and reasonable distribution of available resources.
         ARC staff has responsibilities for program development, policy analysis and review, grant
         development, technical assistance to States, and management and oversight.


                                                      1
-   In order to avail itself of federal agency expertise and administrative capability in certain areas,
    ARC often relies on other departments and agencies for program administration, especially with
    respect to highways and infrastructure projects. For example, the Appalachian Regional
    Development Act authorizes the Secretary of Transportation to administer the Commission's
    highway programs, with the Commission retaining responsibility for priorities, highway
    locations, and fund allocations.




                            ARC ORGANIZATION CHART




                                                 2
                     APPALACHIAN REGION




                                                                                           NEW YORK
   WISCONSIN                                                                 P EPNENNSNYSLYVLAVNAINAI A
                                     MICHIGAN


                                                                                P E N N S Y LVA N I A


    ILLINOIS              INDIANA                   OHIO




                                                                                                                                          RS W
                                                                                                                                            EY
                                                                                                                                       JE NE
                                                                                                                                   E
                                                                  WW.
                                                                    EST V I R G I N I A




                                                                                                                               WAR
                                                                       VIRGINIA                   M
                                                                                                      A
                                                                                                          RY




                                                                                                                           ELA
                                                                                                               L
                                                                                                                   A
                                                                                                                       N




                                                                                                                                D
                                                                WEST VIRGINIA                                              D



                       KENTUCKY                                                      VIRGINIA
                                  HART




           TENNESSEE
                                                                            N ORTH C AROLINA



                                                              S OUTH C AROLINA




M ISSISSIPPI                                    GEORGIA
                    ALABAMA
                                                                                                                       October 8, 2008

     Appalachia, as defined in the legislation from which the Appalachian Regional Commission derives its
     authority, is a 205,000-square-mile region that follows the spine of the Appalachian Mountains from southern
     New York to northern Mississippi. It includes all of West Virginia and parts of 12 other states: Alabama,
     Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina,
     Tennessee, and Virginia.


                                                          3
                         APPALACHIAN DEVELOPMENT
                         HIGHWAY SYSTEM

                         September 30, 2010




                                                                                                                                                                                 NEW YORK                                             ALBANY


   WISCONSIN
                                                        MICHIGAN                                                                                                    JAMESTOWN
                                                                                                                                                                                                     ELMIRA   T   BINGHAMTON

                      CHICAGO
                                                                                                                                                            ERIE
                                                                                                                                                                        T                   U-1 U

                                                                                 TOLEDO                                                    CLEVELAND
                                                                                                                                                         P ENNSYLVANIA                                   SCRANTON

                                                                                                                                                                                WILLIAMSPORT

                                                                                                                                               AKRON                                             P
                                                                                                                                                                                O-1       STATE COLLEGE
                                                                                                                                                                        ALTOONA       O         M
                                                                                                                                                                    M                                         HARRISBURG

    ILLINOIS                            INDIANA                                        OHIO                                                                                     M




                                                                                                                                                                                                                                       RS W
                                                                                                                                                               JOHNSTOWN




                                                                                                                                                                                                                                         EY
                                                                                                                                                PITTSBURGH
                                                                                                                                                                                      O




                                                                                                                                                                                                                                  JE NE
                                                                                                COLUMBUS
                                                INDIANAPOLIS




                                                                                                                                                                                                                                  E
                                                                                 DAYTON
                                                                                                                                           WHEELING                         N
                                                                                                                                                                                               M




                                                                                                                                                                                                                              WAR
                                                                                                                                                                                               HAGERSTOWN
                                                                                                                                               MORGANTOWN                                          BALTIMORE
                                                                                                     C                                                                                               A
                                                                                                                                                                    E        CUMBERLAND
                                                                                                                              PARKERSBURG CLARKSBURG
                                                                                                                                                                                                         RY




                                                                                                                                                                                                                          ELA
                                                                                                                C-1
                                                                                                                               D                D                   H
                                                                                                                                                                                    WASHINGTON, DC
                                                                                                                                                                                                              L
                                                                                  CINCINNATI
                                                                                                                                                           ELKINS                                                 A
                                                                                                                C
                                                                                                                                           WEST VIRGINIA                                                              N




                                                                                                                                                                                                                              D
                                                                                                                                                                                                 ANNAPOLIS
                                                                                       D         B-1
                                                                                                                      B            CHARLESTON
                                                                                                                                                                                                                          D
                                                                         FRANKFORT
                                                            LOUISVILLE
                                                                                                            B
                                                                                                                          HUNTINGTON                L
                                                                                                                                       G
                                                                   LEXINGTON
                                                                                   I                  R                   B                                                               RICHMOND
                                  KENTUCKY                                                       I
                                                                                                     PIK
                                                                                                           EV
                                                                                                                ILL
                                                                                                                      E
                                                                                                                                               BECKLEY
                                                                                                                                                                        VIRGINIA
                                                                                                                                                              ROANOKE
                                                     HART
                                                                                       LONDON
                                                                                                                                  B Q           Q
                                                                         J                  F
                                                                                                                              BRISTOL


                                                              J                     F                                         B                                             GREENSBORO
                         NASHVILLE                                                          S
             TENNESSEE
                                                              COOKEVILLE                                                           B                                                  RALEIGH
                                                                                       KNOXVILLE                                  ASHEVILLE
                                                                                                                                                        NORTH CAROLINA
   MEMPHIS                                                    J                         K                                                               CHARLOTTE
                                                                  CHATTANOOGA                          A
                                                                         K                                                             W
                                                                                                     GREENVILLE                            SPARTANBURG
                          V                 V
   V                                    HUNTSVILLE                           A
             TUPELO                                                               A-1
                                                                                                                              SOUTH C AROLINA
                              X                                                                                                                         COLUMBIA
                                                                             ATLANTA
                                  X-1    BIRMINGHAM




M ISSISSIPPI                                                                      GEORGIA
                                     MONTGOMERY


                           ALABAMA


                                                                                                                                                                            ADHS Miles Open to Traffic--
                                                                                                                                                                            September 30, 2010

                                                                                                                                                                            ADHS Miles Not Open to Traffic

                                                                                                                                                                            Interstate Highway System
                                                                                                                4
       B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent Federal audit and investigative unit. An independent Federal Inspector
General who reports directly to the Federal Co-Chair heads the OIG.

Role and Authority
The Inspector General Act of 1978 (Pub.L. No. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing and
detecting fraud and abuse in, the program and operations of the establishment. In this regard, the IG is
responsible for keeping the Federal Co-Chair and Congress fully informed about the problems and
deficiencies in ARC programs and operations and the need for corrective action. The IG has authority to
inquire into all ARC programs and activities that are federally funded. The inquiries may be in the form
of audits, surveys, investigations, personnel security checks, or other appropriate methods. The two
primary purposes of these inquiries are (1) to assist all levels of ARC management by identifying and
reporting problem areas, weaknesses, or deficiencies in procedures, policies, program implementation,
and employee conduct and (2) to recommend appropriate corrective actions.

              Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are provided under the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operation of the OIG neither replaces established lines of operating authority
nor eliminates the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

Funding and Staffing
The OIG funding level for FY 2011 is governed by the continuing budget resolutions. Our FY 2010
funding was $612,000. Staffing consists of the Inspector General, an Assistant Inspector General for
Audit, and a confidential assistant. Grant review activities continue to emphasize use of contracted
services (e.g., independent public accounting firms or other OIG offices) supplemented by
programmatic and performance reviews directed by OIG staff. Investigative assistance is provided by
other OIG offices on an as-needed basis through memoranda of understanding. This approach is
deemed the most appropriate to date in view of the nature of ARC operations and limited resources.

In order to comply with Pub.L. No. 110-409, the Inspector General Reform Act of 2008, the OIG
included funding for FY 2011 that includes reimbursement of other IGs for counsel, audit and
investigative services via Memorandums of Understanding. Currently, we use the Department of


                                                   5
Commerce OIG legal counsel and their audit staff to supplement our activities. We also use other OIG
offices to provide investigative services.

Because of the small size of our OIG office, we have had to rely on the resources of other OIGs to
complete some program activities. With the recent legislation enacted to form more regional
commissions, we recommend consolidating regional commission OIG offices into one organization or
moving regional commission OIG offices to larger agencies that already have similar agency programs.
A full discussion immediately follows.

Support for Consolidation of OIG functions across Regional Commissions

In the 2008 Farm Bill, Congress created three new regional commissions, the Southeast Crescent, the
Southwest Border, and the Northern Border Regional Commissions.1 Part of the bill states:

 Appointment of Inspector General.—There shall be an Inspector General for the Commissions
appointed in accordance with section 3(a) of the Inspector General Act of 1978 (5 U.S.C. App.). All of
the Commissions shall be subject to a single Inspector General.2

As can be seen on the map on the cover to this report, there are 7 regional commissions.3 As an office
with only 3 FTE, there are times when more is needed. While the rest of the IG community has been
more than forthcoming with assistance, there should not be a need for this. For example, in the past, we
have received investigative assistance from the Department of Education OIG and from the Department
of Homeland Security OIG, IT audit, technical, and investigative help. We currently have a
Memorandum of Understanding with the Department of Commerce OIG to provide support. To date, the
majority of this support has been in the form of legal advice and research.

Not having staff on board to cover the entire spectrum of skills needed to provide complete oversight
tends to skew the work that is scheduled. While it is true that most skills can be contracted out (IT,
audit, inspection), investigative work is an inherently governmental function. Additionally, there are
occasions where technical assistance is needed, but the amount needed does not warrant contracting.

As can be seen on the map on the cover, there is certainly enough national coverage to warrant a full
oversight capability. Our suggested approach is to put this responsibility under an agency that already
has staff on board that deals with the major functions of these commissions. This would also further our
independence as the reliance on the agency for support services could be transferred to the new
organization.

In the Denali Commission’s Semiannual report to the Congress for the first half of Fiscal Year 2010, the
Inspector General recommended that the Denali Commission Office of Inspector General be included in
the consolidation called for in the 2008 Farm Act. We would also support this consolidation of all
regional commission OIGs into a separately functioning office or placement under another larger OIG
with the appropriate and separate funding to properly oversight these regional commissions.



1
  Pub. L. No. 110-246, 122 Stat. 2231 (2008), 40 U.S.C. § 15301. The specific coverage of each commission is described at
40 U.S.C. §§ 15731-15733.
2
  Pub. L. No. 110-246, 122 Stat. 2242 (2008), 40 U.S.C. § 15704.
3
  In addition to ARC and the three regional commissions created by the 2008 legislation, there are three other regional
commissions: the Delta Regional Authority, 7 U.S.C. §§ 2009aa-2009aa-13; the Northern Great Plains Regional Authority, 7
U.S.C. §§ 2009bb-2009bb-13; and the Denali Commission, Pub. L. No. 105-277, 42 U.S.C. § 3121 note.
                                                            6
III.   OIG ACTIVITY


       A.      AUDITS, INSPECTIONS, EVALUATIONS & REVIEWS

ARC grant operations represent the most significant part of ARC’s programs. In prior reporting periods,
we issued two reports, one on ARC’s grant system and the other on ARC’s grant operations. To date,
most of the recommendations related to the grant system remain unimplemented and we provide a brief
synopsis of that report below. However, just before the end of this reporting period, management issued
a new grant policy memorandum that addressed approximately two-thirds of our grant operations
recommendations; some additional recommendations may be closed pending further evaluation. During
the current reporting cycle, we issued three other reports, two reports concern grants made to foster
small businesses, and primarily have findings related to the grant requirements. The other report issued
was a financial statement audit report. An inspection of ARC’s performance measures and their
reporting and an audit of an ARC’s grant contribution to SBA’s Rural Business Investment Program
through a grantee are ongoing. A new auditor solicitation was in process but has been suspended
pending the OIGs possible conversion to non-federal status.
All issued reports can be found on the OIG website http://www.arc.gov/oig

Audits of ARC's Grant Operations
We completed a comprehensive review of ARC’s grant management system in April 2008. The audit
revealed the system had data conversion, entry and internal processing errors. Additionally, inadequate
resources had been allocated to ensure timely completion of the project/system and to provide for
system documentation. System access and security features were not controlled appropriately and there
was only a single person knowledgeable of the system internals. Ten recommendations to address these
findings resulted from the audit. The implementation and completion of the recommendations has not
been as prompt as envisioned and the project continues to languish. In addition, many of the
recommendations are not being implemented in the sequence suggested by the report, which in all
likelihood will result in increased costs and time to complete.

Audits of ARC's Grantees
The two performance audits we issued concern grants made to foster business growth in rural
Appalachia. The purpose of the grants were to provide training and/or intensive technical assistance to
businesses and to investigate, through trial, the establishment of a facility to house small businesses in
need of continued technical support. The results of the audit found that generally the purposes of the
grants were being met but did present recommendations concerning improper implementation of grant
requirements, a recommendation requiring return of funds, and noted a conflict of terms in ARC
requirements related to prior approvals.

As discussed in previous semiannuals, ARC continues to provide only lax enforcement of the grant
requirements, i.e., the return of funds. For a grant audited this time, ARC issued a clarification to the
grant documentation that generation of program revenue was expected and that it was not to be used to
reduce the grant amount awarded. We continue to urge management to enforce grant requirements as it
is one of the best tools ARC has to ensure grant goals are met in a fair and unbiased manner.




                                                    7
In addition, as we observed from previous audits, more underlies these issues than simple grantee
compliance, but they concern management’s attitudes towards enforcement of grant requirements. Also,
as we noted in the last semiannual report, management has the appearance of enforcing grant
requirements by writing/ informing grantees of requirements, but this is not the same as ensuring
individual grantees live up to their grant obligations and taking action to require return of funds for
violations. As stated in the previous semiannual, we will continue to monitor management’s decisions
concerning grant requirements.

ARC Financial Statement Audit
The most recent financial statement audit report was issued without disclaimer or qualification; this
makes the second consecutive report issued with a clean audit opinion since adopting federal financial
reporting rules in 2007. Previous reports were issued over six months late but this report was issued
more timely, yet was four months late. Financial reporting accuracy and timeliness appear to be
improving, and some of the report’s tardiness is probably attributable to new auditors becoming familiar
with ARC’s reporting operations.

In-process Audits and Inspections
Currently, we are overseeing an inspection of ARC performance reporting. A discussion draft is expected
shortly. We are also monitoring an audit being conducted by a contracted CPA. The audit concerns a
grant investment in a fund established under SBA’s Rural Business Investment Program.

Peer Review
Offices of the Inspectors General (OIGs) performing audits are required to perform (and undergo)
reviews of other OIG offices every three years to ensure policies and/or procedural systems are in place
that provide reasonable assurance of compliance with government auditing standards (GAS). ARC
completed a peer review of the Federal Election Commission OIG and issued a report on its system of
quality controls on March 28, 2008; there were no recommendations made to the Federal Elections
Commission OIG. In 2009, CIGIE issued new guidance for peer reviews and we have implemented
changes to help ensure conformity with them. However, we note that the Peer Review concerns itself
almost exclusively with OIG internally generated audits conducted under GAS. The ARC OIG relies on
contract auditors for its GAS audits; and for its internal review work relies on CIGIE’s Inspection
guidelines. Our peer review was completed in March 2011 and we received a pass rating with a scope
limitation as there were no products germane to the review guidance. See Appendix E.


       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the
Federal Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the
results of investigations may be referred to the appropriate Federal, State, or local prospective authorities
for action.

We previously reported on our referral of a grant fraud investigation to the Tennessee Valley Authority
OIG. The matter has been referred for prosecution. We will support any prosecution or further
investigative activity and report the results when the matter is resolved.

                                                     8
       C.     OTHER

Requests for Information
Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their auditee agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit and inspection activities for of all federal OIG offices. Information provided concerns the dollar
value of management decisions related to questioned costs and funds put to better use and OIG
recommendations related to questioned costs. The House Committee on Oversight and Government
Reform, also with some regularity, requests information concerning the number and type or status of our
recommendations. Lastly, we comply with information requests from other government regulatory
bodies. For example, previously GAO requested us to provide survey information on governance and
the role of the inspector general. Their requests involved our office’s allocation of resources and the
number of open recommendations.

Appalachian Development Highway System (ADHS) Audits
Since Fiscal Year 1999, ADHS has been funded by the Highway Trust Fund, which is administered in
part by the U.S. Department of Transportation (DOT). ARC retains certain programmatic
responsibilities, but the funding source is the Highway Trust Fund. Our office has reached an
understanding with the DOT OIG regarding audit cognizance and has signed an MOU with the DOT
OIG.

OIG Policy Manual
The OIG policy manual has been rewritten and re-issued to reflect the many changes within the OIG and
audit standards community. Further, other changes were made to reflect the new peer review guidance.
Continual updating of the manual will be required to improve the manual and keep it current.

Implementation of OIG Reform Act
The OIG has implemented all of the requirements of Pub.L. No. 110-409, The Inspector General Reform
Act of 2008. We also completed an upgrade of our website and now have the ability to receive
anonymous reports of fraud, waste, and abuse.

Recommendation Tracking Database
ARC-OIG has implemented a recommendation tracking database. The design of the database and some
of the customization for ARC-OIG’s use was provided by another OIG for which we are appreciative.
The database is also available to selected ARC personnel, who can access the database at any time. The
system provides:

   x   View access for all previously issued recommendations, both open and closed.
   x   An implementation status field for management updates (used by OIG to facilitate review
       activities and the closing of recommendations).
   x   An OIG response field/final management action field, which is used to communicate OIG views
       of management’s implementation activities or to record management’s final action.




                                                   9
Going Green
ARC management has implemented green measures within the organization's internal operations. For
example, a document scanning system has been linked to ARC’s e-mail system. Management, in a
written response to our draft report on ARC's grant management system stated, “We have had
preliminary discussion with our state partners about the need to move to a paperless application process,
and will pursue this more vigorously within this fiscal year.” Reduction in paper utilization can reduce
cost, improve the timeliness of management decisions through better document storage and retrieval,
and helps to reduce demands on our earth's ecological systems.

Our office, in alignment with management's initiative, is committed to “going green” and we continue to
work toward that end. To date, our office has made substantial strides in working with contracted
auditors and issuing reports electronically.


IV.    REPORTING FRAUD, WASTE, AND ABUSE

A region wide toll-free hotline was previously established to enable direct and confidential contact with
the ARC OIG, in line with governmental and longstanding OIG initiatives as identified in the IG Act of
1978; to afford opportunities for identification of areas subject to fraud, waste, or abuse. Also, in
accordance with the Inspector General Reform Act of 2008, the ARC OIG implemented another
communication channel allowing anonymous reporting of fraud, waste or abuse via a link on our website’s
home page. The web link is, http://ig.arc.gov/. However, with respect to the telephone hotline calls,
contacts with the ARC OIG relative to public complaints or concerns continue to be primarily received
through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received about matters for which other agencies have jurisdiction.
This resulted primarily from the ARC OIG hotline apparently being the first such OIG listing in some
telephone directories, resulting in ARC OIG being contacted by citizens who did not know the
appropriate agency for handling their concerns. The ARC OIG facilitated the complaint process by
identifying the applicable agency based on complainant information and providing the correct OIG
hotline number.


V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG continues to review and provide comment on legislation germane to the OIG and the OIG
community. Our comments are provided to the CIGIE for incorporation with comments from all other
OIGs.

Reporting to Full Commission

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Pub. L. No.111-203) amended the
Inspector General Act changing the entity head of ARC from the Federal Co-Chair to the Commission.
Although the Office of Management & Budget (OMB) has not yet implemented these changes through
the required notice and publication of the List of Designated Federal Entities and Federal Entities, which




                                                   10
they are required to publish annually under the IG Act, this amendment raises serious concerns. This
amendment would place the Inspector General under the direct supervision of the 13 Appalachian state
Governors, impinge upon OIG independence, and could pose significant administrative difficulties in
implementing the new reporting structure. Based on our review of the legislation and discussions with
certain congressional staff, we do not believe that legislators intended to have this amendment apply to
agencies, such as ARC, where the Commission is composed primarily of non-federal, non-Presidentially
appointed members. As a result of this unintended consequence, we have sought clarification from
legislators and have suggested possible amendments to the Inspector General Act.

We believe that ARC and the other economic development commissions are alone in having non-
presidentially appointed commission members. The other commissions affected by the Dodd-Frank act
have presidentially-appointed commissioners.

In their attempt to comply with Dodd-Frank, ARC management responded with an effort to move the
ARC OIG to become part of the Commission by way of a commission resolution. This would have the
effect of making the IG and the employees of the OIG non-federal employees. At the most recent
Commission meeting, a compromise resolution was passed requiring the Executive Director to
investigate the options available to the Commission. The investigation is to be completed no later than
the end of May 2011.

We reiterate our belief that having a non-federal OIG under the direction of the Commission will have a
significant and negative impact on the OIG’s abilities to perform its duties unobstructed and with
independence, a central tenet of audit and investigational work.

In addition, we urge appropriate action be taken to amend the Inspector General Act, to prohibit non-
presidentially appointed Commissions or Boards from being placed in charge of federal audit activities,
which help to ensure proper expenditure of federal funds. We further urge the consolidation of all
economic development commission OIG’s under a cabinet level OIG (See discussion on page 6).




                                                  11
                                                                                          APPENDIX A



              SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                        ISSUED OCTOBER 1, 2010 TO MARCH 31, 2011




Report No.                    Report Title/Description      Program Dollars or   Questioned/   Funds to Better
                                                             Contract/Grant      Unsupported      Use***
                                                                Amount*            Costs**


               Compliance Audit of Kentucky Highlands           $75,000
 11-01
               Energy Business Boot Camp

               Compliance Audit of Kentucky Highlands
 11-02         Investment Corporation, Energy, Technology      199,000           $16,501
               and Businesses Accelerator
               Appalachian Regional Commission Financial
 11-03
               Statement Audit for Fiscal Year 2010

TOTALS
                                                               $174,000          $16,501            $0
(3 Reports)
                                                                       APPENDIX B

            SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       OF QUESTIONED OR UNSUPPORTED COSTS

                                      No. of    Questioned   Unsupported
                                      Reports     Costs         Costs


A.   For which no management             0        $0              $0
     decision was made by the
     commencement     of  the
     reporting period



B.   Which were issued during the       1        $ 16,501         $0
     reporting period



     Subtotals (A + B)                  1        $ 16,501         $0


C.   For which a management
     decision was made during the
     reporting period



     (i)      dollar    value    of      0        $0             $ 0
              disallowed costs




     (ii)     dollar value of costs      1       $ 16,501        $ 0
              not disallowed



D.   For which no management             0       $0              $ 0
     decision has been made by the
     end of the reporting period



E.   Reports  for which   no             0       $0              $ 0
     management decision was
     made within 6 months of
     issuance
                                                                                       APPENDIX C


    SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                        MANAGEMENT DECISIONS




                                                                      No. of      Dollar Value
                                                                      Reports   ($ in thousands)

  A.   For which no management decision was made by the                  0           $0
       commencement of the reporting period


  B.   Which were issued during the reporting period                     0           $0

       Subtotals (A + B)                                                 0           $0

  C.   For which a management decision was made during the
       reporting period


       (i)      dollar value of recommendations that were agreed to
                by management

                --based on proposed management action                    0           $0

                --based on proposed legislative action                   0           $0


       (ii)     dollar value of recommendations that were not            0           $0
                agreed to by management



  D.   For which no management decision has been made by the end         0           $0
       of the reporting period


  E.   Reports for which no final management decision was made           0           $0
       within 6 months of issuance
                                                                        APPENDIX D

      SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                             MANAGEMENT ACTIONS      ($ in thousands)


                                                                       Amounts
                                                         Amounts     Agreed to by
               OIG Audit                   Number of   Recommended   Management
                Reports                     Reports       by OIG     (Disallowed)




A.     For which final action by              0           $   0         $   0
       management had not been taken
       by the commencement of the
       reporting period

B.     On which management decisions          0           $   0         $   0
       were made during the reporting
       period

C.     For which final action was taken
       by management during the
       reporting period

       (I)    Dollar value of                 0           $   0         $   0
              recommendations that
              were actually completed

       (ii)   the dollar value of             0           $   0         $   0
              recommendations that
              management has
              subsequently concluded
              should not or could not be
              implemented or completed

 D.      For which no final action had        0           $   0         $   0
         been taken by the end of the
         reporting period
                                                                                         APPENDIX E



Peer Review Results

The Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law 111-203, amended the
Inspector General Act to require reporting of OIG peer review results during the period of review, along
with a listing of related and open recommendations, the status of open recommendations and why the
recommendations had not been fully implemented, if applicable.

The ARC OIG peer review report was issued on March 18, 2011 by the National Archives (NARA) OIG
who found that the ARC OIG’s system of quality control for the audit organization through September
30, 2010 was suitably designed to provide reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. They assigned a pass rating
with a scope limitation.

No recommendations were made by NARA.

NARA’s peer review report is attached.
                                                                                          APPENDIX F


                                  DEFINITIONS OF TERMS USED



The following definitions apply to terms used in reporting audit statistics:

Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
Cover photos courtesy of the U.S. National Park Service




                             Appalachian Regional Commission

                                Office of Inspector General
                          1666 Connecticut Avenue, NW, Suite 700
                               Washington, DC 20009-1068
